 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




 ACCESS TO RURAL HEALTH CARE:
SUCCESSFUL COMMUNITY INITIATIVES




                 JULY 1993
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Sewices, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and management problems and recommends courses to correct
them.

                            OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing semices for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractor in carrying
out their respective responsibilities and are intended to provide independent assessments of HHS
programs and operations in order to reduce waste, abuse, and mismanagement and to promote
economy and efficiency throughout the Department.

                            OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative sanctions,
or civil money penalties. The 01 also oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

                 OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI’S Atlanta Regional Office staff prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General and Christopher Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

Atlanta Region                                                                 Headquarters

Maureen Wilce, Project Leader                                                  Cathaleen Ahern

Ron Kalil

Paula Bowker

Ruth Reiser


For additional copies of this report, please contact the Atlanta Regional Office at 404-331-4108.

 Department of Health and Human Services

         OFFICE OF

    INSPECTOR GENERAL





  ACCESS TO RURAL HEALTH CARE:

SUCCESSFUL COMMUNITY INITIATIVES





            JULY 1993   OEI-04-92-00730

                  EXECUTIVE                         SUMMARY


PURPOSE

To describe successful initiatives for providing access to health care in rural communities
that do not have a local hospital.

BACKGROUND

Many changes in the provision of medical care have resulted in an increase in hospital
closure. Specialization and advanced technologies have drastically changed the patterns
of care at hospitals. Occupancy rates at hospitals have decreased as many procedures
are treated with shorter inpatient stays. Further, procedures once requiring inpatient
stays can now be performed on an outpatient basis. Likewise, improved mobility of those
living in rural areas has contributed to closures of local hospitals. Rural residents can,
and often do, bypass local hospitals to obtain more specialized care that is typically
available in larger regional or urban hospitals. Nationally, 193 rural hospitals closed
during 1987 through 1991. This is 7.1 percent of all rural hospitals that were open in
1987.

The closure of local hospitals had limited effect on access to medical care for most
people. Most communities where a hospital closed were within 20 miles of another
hospital. However, communities without a nearby hospital and certain populations within
the communities, such as the poor and elderly, can have problems accessing health care
services. The hospital closures have led to strong interest in providing health care locally
without a hospital. This desire of local communities to take responsibility for their own
health care needs was recently endorsed by the Secreta~ of Health and Human Services.
She expressed her intent to help rural communities empower themselves to meet their
own health care needs.

SCOPE AND METHODOLOGY

We surveyed health professionals in 39 States where one or more rural hospitals had
closed to identify communities that had developed a successful initiative for providing
health care after their hospital had closed. We selected six initiatives for case study. We
visited each selected community and described each of their initiatives and compared and
contrasted the services provided.

FINDINGS

Rural commundia     can empower themselves to   create   succewfid   health   care   initiatives
The six initiatives we selected for this study demonstrate commitment, hard work, and
creativity to provide access to health care locally. Once communities accepted their
inability to sustain a hospital, they created an alternative which reflected individual needs


                                                i
and resources within a community. Often, traditional community boundaries had to be
ignored to create a successful health care initiative. Thereafter, the community must
support the initiative or it too will fail as have many small rural hospitals.

Successjhl   initiatives
                      can   irnpmve   ddwy   of   health care senices

Through their initiative, the communities we selected generally improved the supply of
health care professionals. They established (1) programs to attract health care
professionals to their community, and (2) networks to share health professionals between
communities. Likewise, they tailored health care to their community -- eliminating
duplication and underused services.

Sttwasskance     is*al      fw succiwjid cornrrudy hitiiztiveis

State governments provided grants and technical assistance. Further, States revised
legislation and policies to allow communities to develop and operate their health care
initiatives.

Local commudies      relied on exhting Federal programs h developing their ikitidves

Virtually all of the initiatives relied on existing Federal programs, such as Medicare and
Medicaid, for funding and technical assistance. To illustrate, Newton, Texas, Ekalaka,
Montana and Oxford, Nebraska received Medicare and Medicaid reimbursements as part
of the existing Rural Health Clinic program. Significantly, no community initiative was
funded through new Federal programs.

CONCLUSION

Rural communities where hospitals have closed and those that are trying to save a failing
hospital can find other ways to meet their health care needs. Local residents who accept
the notion of health care without a hospital can empower themselves to design and
implement a strong health care system for their communities. The success of local health
care initiatives depends heavily on creative use of all available resources by community
leaders. A community must first obtain strong local support and then seek available
State and existing Federal support.




                                                    ii
                      TABLE                     OF CONTENTS

                                                                                                                   PAGE

EXECUTIVE        suMMARY


INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


   Communities Empowering Themselves                          . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


   Improving Delivery Of Services                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


   State Assistance Is Critical . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...10


   Using Existing Federal Programs                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...10


CONCLUSION           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...11


APPENDIX       : DESCRIPTION               OF COMMUNITY                  INITIATIVES             . . . . . . . . . . . A-1


   Newton Education Center, Newton, Texas                          . . . . . . . . . . . . . . . . . . . . . . . . ..A-2


   Rural Health Clinic, Lewisville, Arkansas                     . . . . . . . . . . . . . . . . . . . . . . . . . ..A-4


   North Penal Oreille Health Semices Consortium,

   Metaline Falls, Washington . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-6


   Oxford Medical Center, Oxford, Nebraska                         . . . . . . . . . . . . . . . . . . . . . . . . . . A-8


   Jane Phillips Community Health Clinic, Caney, Kansas . . . . . . . . . . . . . . . . A-10


   Medical Assistance Facilities, Circle, Ekalaka,

   Jordan, and Terry, Montana . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-12

                             INTRODUCTION


PURPOSE


To describe successful initiatives for providing access to health care in rural communities

that do not have a local hospital.


BACKGROUND


Changes In The Provision of Medical Care Contrhte         to Hospital Closures


Significant changes in provision of medical care in recent years have resulted in an

increase in hospital closures. The once prevalent general practice of medicine has

Yielded toincreased specialized care. Specialized care requires advanced technologies

plus physicians andother medical professionals whoaretrained        to use it. Likewise, the

improved mobility of people in rural areas further contributed to hospital closures. The

availability of automobiles and interstate highways allows rural citizens easy and fast

access to hospitals and other medical services in distant locations. People in rural

communities can, and do, bypass a local hospital to obtain more specialized care that is

typically available in larger, more urban locations. Advances in emergency ambulance

services also allow bypassing a local hospital even in emergency cases.


Our study of hospital closures during 1987 through 1991 showed that 193 rural hospitals

closed nationally (“Trends in Rural Hospital Closure: 1987-1991” 0EI-04-92-O0441).

This is 7.1 percent of all rural hospitals that were open in 1987. The majority of the

hospitals that closed were small and had low occupancy rates.


Hospital Closures Had Limited Effect on Access to Medical Care


The closures of local hospitals had limited effect on access to medical care for most

people. In our five years of hospital closure studies, we found that for most

communities, hospital care was still available within 20 miles. Further, the Office of

Inspector General reported on the effects of hospital closure on access to hospital care in

1990 (“Effects of 1988 Rural Hospital Closures on Access to Medical Care,” 0EI-04-89-

00742). In the 1990 study we found that most residents did not use the local hospital

before it closed. Residents chose to bypass the local hospital, and perhaps other small

rural hospitals, to travel to newer, larger and more specialized facilities. The study

showed that, overall, most residents did not have serious problems accessing health care

as a result of hospital closure. Although many residents in communities which lost their

hospitals had inpatient and emergency care available nearby, some residents had

problems accessing medical care.





                                               1

Interest In Providing Hezdth Care Without A Hospital


During ourevaluations ofhospital closuresin 1987 through 1991, many Federal, State

and local health care providers expressed interest in how communities successfully meet

health care needs without a hospital. They wanted to know what communities had done

to continue providing health care in their communities when their hospital closed.

Further, they wanted to know if the techniques used by these communities could be

applied in other communities, including communities facing hospital closure, and

communities which have never had a hospital. Finally, Dr. Shalala, Secretary of Health

and Human Services, recently expressed her strong intent to help rural communities

empower themselves to meet their own health care needs.


This report provides information on initiatives developed by selected communities to

successfully meet their health care needs. We believe examination of the successful

community initiatives will help decisionmakers at the Federal, State and local level design

policies and programs to meet local health care needs during a period when the

provision of, cost of, and access to health care are changing drastically.


SCOPE AND METHODOLOGY


We interviewed State health and hospital officials and health care advocates in 39 States

where one or more rural hospitals had closed. We obtained information on (1) what

specific rural communities had done to provide local access to health care following

closure of their hospital, and (2) what standards and characteristics indicated successful

initiatives in those communities. We then interviewed State health professionals,

researchers, and other officials in State and national organizations that have an interest

in rural health issues to identify communities they believed had developed successful

health care initiatives. They identified 18 rural communities.


To determine the types of health care provided, we interviewed, by phone, community

health officials in each of the identified rural communities. We classified each

community initiative based on extent and level of health care services provided. We then

selected six initiatives which (1) met our standards for a successful initiative, (2)

represented different types of initiatives, and (3) gave geographic dispersion among rural

communities that had developed initiatives.


We visited each of the selected six communities    to (1) document the services actually
provided, and (2) obtain information on the development      and operation of the initiative.
We obtained information by interviewing the administrator,     health care professionals,
former hospital administrators  and staff, board members and community leaders, and by
reviewing hospital and community records. Where appropriate,        we also interviewed State
officials who were involved in the transition from a closed hospital to an alternate
method (initiative) of providing health care. Finally, we compared and contrasted the
development    and operations of the six selected community initiatives (see Appendix A).




                                              2

We collected and analyzed information during June 1992 through March 1993 to identify
successful community initiatives for providing local health care when a hospital closes.

We conducted this inspection in accordance with the Quality Standards for Inspechons
issued by the President’s Council on Integrity and Efficiency.




                                            3

                                    FINDINGS


RURAL COMMUMHES   CAN EMPOWER THEMSELVES                           TO CREATE
SUCCESSFUL HEALTH CARE INITIATIVES

Initiatives Reflect Individual Cmmmnity    Needs And ResourCes

Each of the six initiatives we selected reflected the varied needs and resources within a
community. We briefly summarized each of the six selected case examples below.

                     The Newton County Education Center: This initiative includes a



 Q

                     wide mix of (1) public health services, including immunizations and
                     well-child care provided by nurses, (2) a Rural Health Clinic (RHC)
                     where a physician provides basic primary care including lab and x-
                     ray services, (3) vocational educational services provided by county
                     school system employees at the initiative site, and (4) a day care
                     center. The center is located in the former Newton County
                     Memorial Hospital at Newto~ Texas. It is administered by Jasper
                     Memorial Hospital, located in a neighboring county.

                     The Rural Health Center: The center is located in Lewisville,
                     Arkansas. The initiative is intended to be a “one-stop shopping”
                     center for health care. When completed, it will combine health care
                     and social services. The clinic provides basic primary care, lab, x-
                     ray, and public health services. Four part-time physicians, several
                     nurses, a visiting nurse pediatrician, and a nutritionist staff the clinic.
                     Renovations are underway to include county social services at the
                     center. The clinic also operates a satellite clinic two days a week in
                     another community that is 18 miles away -- Bradley, Arkansas. The
                     center is located in the former Lafayette County Memorial hospital.

                     The North Penal Oreille Health Services Consortium: The
                     Consortium is located in Metaline Falls, Washington. The
                     Consortium of health care providers is centered around a RHC,
                     located in nearby Ione, Washington. The consortium provides
                     primary care, emergency care services, transfer agreements with the
                     nearest hospital, case management and referrals, home health
                     services, psychiatric services through a nurse practitioner, and a van
                     to provide non-emergency transportation for handicapped persons.
                     The clinic is staffed by a full-time physician, one physician assistant,
                     and three part-time health care assistants.




                                              4

The Oxford Medical Center: Thecenter islocatedin           Oxfor&
Nebrakka. Community leaders and board members of the Fritzer
             @6~ealth              center inxford    established an
affiliation with a neighboring hospital in Cambridge after the
hospital in Oxford closed. The Cambridge hospital already had four
satellite clinics. They converted the closed hospital in Oxford into a
fifth clinic. The clinic, which is a RHC, is staffed by a full-time
physician assistant. Three physicians visit weekly from the affiliated
hospital. The clinic offers general, family practice services, lab, x-
ray, on-call urgent care after hours, emergency transportation
through a volunteer EMT service and helicopter transport, a van
service to nearby hospitals, health education, and a pharmacy.

The Jane Phillips Community Health Clinic: The clinic is located in
Caney, Kansas. Because of serious financial problems, the
administrator of the Caney Hospital, an acute care facility, started
planning for continuation of health care before the hospital closed.
She obtained agreement with the Jane Phillips Episcopal Memorial
Hospital in nearby Bartlesville, Oklahoma to provide medical
support services. The Caney Clinic provides offices for three
physicians (although at present, only two practice at the clinic) and a
part-time physician assistant. The initiative provides primary care,
lab services, an optician’s office, 24-hour urgent care, and emergency
transportation to the hospital in Bartlesville. It is also planning to
house the town’s remaining pharmacy. The Jane Phillips Hospital
was already serving as a hub for supporting medical facilities in
several other communities. Because of the upfront planning, the
Jane Phillips Clinic opened and began providing semice on the
Monday following closure of the Caney Hospital on Friday.

The Medical Assistance Facilities: The Medical Assistance Facilities
are part of a demonstration program in Montana sponsored by the
Heath Care Financing Administration, Department of Health and
Human Services. Four rural Montana communities, Circle, Elcal@
Jordan and Teny, are participating in the Federal demonstration
Medical Assistance Facility program. The Medical Assistance
Facilities offer low-intensity inpatient care, 24-hour emergency care
and outpatient medical services, including basic laboratory and x-ray
services. All MAFs are currently staffed by physician assistants.
One community, Circle, also has a physician on site. In addition, all
of the MAFs share facilities with nursing homes, and all have
transfer protocols established with full-semice hospitals. See OIG
report number OEI-04-92-00731 for further details on The Medical
Assistance Facility demonstration program.




                        5

Each of the rural communities above is similar to many other rural communities, where a
hospital closed. ~ehospitals     e~etienced adowward      spiral inoccupanq,   la~ing
revenues and rising costs. The communities feared that when their hospital closed, the
citizens, particularly the poor and elderly, would have unnecessary difficulty obtaining
access to health care. Because they realized that their community could not support a
full service hospital, the communities found other alternatives for meeting their health
care needs.

Cmmmmity Residents Must First Amept That They Can Not Sustain A Hospital

Many community leaders and residents believe that a hospital is essential for access to
health care. Even when a hospital is under-used, a community will often take extreme,
costly measures to t~ and save their hospital. They are proud of their hospital and
believe it will keep medical professionals in the community. For example, despite great
cost, Metaline Falls, Washington maintained its former hospital building for three years.
They hoped that eventually they could reopen the hospital. Trying to keep its hospital
open, Oxford, Nebraska passed two bond issues totalling one half million dollars. Both
communities are now faced with paying the debt plus interest.

The first step in developing a successful initiative for providing local health care through
means other than a hospital is acceptance that the community can not sustain a hospital.
In some communities that we visited, this acceptance started with one individual who
believed something else could be done. In other communities a group of people, such as
the hospital board of directors, saw that closure of their hospital was unavoidable.
Thereafter, they provided the leadership in creating an alternative way to provide access
to health care in their community.

Community Teamwork And Planning Are Critical For A Sueeessful Initiative

People in each of the communities we selected for study had obtained cooperation and
assistance from throughout the community in planning and developing their successful
initiative. Although State and Federal financial and advisory support helped several of
the communities, local people conceived, designed and led development of their
successful initiative.

Each community determined their own health care needs and worked cooperatively in
designing and implementing a plan to meet those needs. Some communities adopted a
very structured approach. For example, Metaline Falls, Washington followed a formal
process developed by the Area Health Education Center. First, the community leaders
accepted the closure of their hospital and agreed to start planning for providing health
care in the absence of a hospital. Second, they obtained a professional facilitator to lead
them through a needs assessment process. Third, the community board designed an
alternative (the initiative) for providing health care in the absence of a hospital. Finally,
the community leaders worked cooperatively in implementing the initiative. As new
health care needs arise and additional resources are generated, the community expects to
repeat the process. Other communities used a less structured approach, but teamwork


                                              6
and planning were very important. For example in Caney, Kansas the hospital

administrator worked with the administration of the Jane Phillips Hospital in Bartlesville,

Oklahoma directly to develop plans for the initiative.


Ignoring Traditional Community Boundaries May Be Essential For A Sueeessful Initiative


Local people in all of the communities selected for our study had to change the

definition of their community in order to successfully provide local access to health care

for their citizens. They had to redefine the community boundaries in terms of who would

be served by the health care initiative. For example, Lewisville, Arkansas redefined its

boundaries for health care to include the southern part of the county near Bradley,

Arkansas. Likewise, In Caney, Kansas the local people decided to become a part of a

larger community for health care that crossed the State boundary into Oklahoma. In

Oxford, Nebraska rivalries which had existed between small neighboring towns were

changed into alliances in order to develop a new local health care arrangement. Finally,

in defining their community for health care purposes, Newton and Jasper, Texas realized

that their football team rivalries did not have to extend to the health care system. One

initiative director said “cooperating with other communities is the key” for a successful

alternative to hospital care. A State Commissioner of Health said “they put aside their

personal and political differences and demonstrated an all-too-rare kind of cooperation.”


By deciding to redefine their boundaries, communities were able to establish networks for

successfully providing access to quality health care. The networks between communities

allowed an individual county to access a wider range of health care services and

resources than those that were available through the former small hospitals. To

illustrate, the Rural Health Clinic in Metaline Falls, Washington could not provide all the

services needed such as home health, psychiatric care, and transportation.  By

establishing a network with health care providers in neighboring counties, Metaline Falls

was able to obtain those services. Likewise, citizens of the neighboring counties can

benefit from services offered in Metaline Falls.


Community Support Is Vital To Maintaining A Successful Health Care Initiative


No initiative could be successful if community residents chose not to use the services

offered. Although record keeping systems were not comparable, all initiatives appeared

to be prospering and growing in the communities we studied. For example, in Metaline

Falls, Washington the average number of patients per month at the Rural Health Clinic

doubled in the first two months after the physician arrived. In Oxford, Nebraska 1100

new patients have been added since the initiative opened in January of 1990. Also, a

new doctor is presently being recruited. A physician assistant at a Medical Assistance

Facility in Montana said, “the community has been very supportive. They feel confident

in the care we provide. If they feel they’d get second-rate care, they’re going to drive

those 50 to 80 miles” to another source of care.


The communities also support their initiatives in other ways, For example, some

communities support the initiative with local tax dollars. Others had fund-raising events



                                              7
to support their health care initiative. All communities we studied tried to win back
residents who did not use the local hospital before it closed or obtained service of other
communities after the hospital closed. They worked hard to communicate a message that
the new health care facility was reliable, and that it was a high quality source of health
care. They published stories about the new facilities, the physicians, and other health
care providers working at the initiatives. The initiative in Metaline Falls, Washington for
example, publishes a monthly newsletter to inform the community residents of initiative
activities. One registered nurse said, “people aren’t going to let it (the initiative) stop.
They saw the problem and want to help.” Local newspapers also helped support the
community initiatives by publishing articles.

SUCCESSFUL      INITIATIVES     CAN IMPROVE DELIVERY            OF HEALTH CARE
SERVICES

Initiatives Increased The Supply Of Health Care Professionals

All of the communities that developed a health care initiative had lost physicians and
other health care professionals. Such losses clearly contributed to the eventual close of
rural community hospitals. Therefore, a major objective of most of the community
initiatives we examined was to recruit and retain health care professionals. For example,
community leaders in Lewisville, Arkansas worked with the Area Health Education
Council to establish a residency program for physicians at the clinic. The work at the
clinic served to meet physician residency requirements. The residency program is
expected to provide a constant supply of physicians in the community, while allowing
medical residents valuable experience in providing rural health care. The Caney, Kansas
community was able to recruit a new doctor because of an initiative arrangement which
allowed staff privileges for physicians at the Bartlesville, Oklahoma hospital.

The supply of health care professional was also increased through community networking
for health care services. To illustrate, the network among communities broadened the
base of doctors for consultation. It also broadened the base of health professionals for
back-up. For example, one physician in a community did not have to be on call 100
percent of the time. The community could spread the on-call duty to all physicians in the
network. One initiative director said that “one of the biggest benefits of the consortium
is having someone else to call on for help not only with health care, but also with
computer problems.” This arrangement allowed physicians and other health care
professionals some free time to pursue their own interest. Some physicians and health
care professionals used that time to upgrade their skills. For example, two directors of
the nursing staff told us their staff have upgraded their skills to respond to the wide
variety of services needed in rural communities.

Health Care Servkxs Were Tailored To Cmmmnity         Needs

Local people tailored their initiatives to meet their community needs. They chose what
services the community could provide and what services would be obtained outside the
community. For example, while all communities wanted physicians for general medical


                                              8
practice, they could notalways afford them. Instead, several employed physician

assistants. Likewise, all communities wanted to provide emergency care. To do so, some

used an emergency room of a former hospital, but other communities established

arrangements with nearby community hospitals and referred patients as needed. Further,

all communities established agreements for air and road ambulance services to transport

patients to appropriate emergency facilities.


One community, Metaline Falls, Washington established a “911” system. Through the 911

system, the community can provide 24-hour-a-day emergency selvice. The 911

monitoring equipment is located at the clinic during the normal work day, and volunteers

take it home with them at night to monitor emergency calls.


Unlike hospital requirements which dictate how resources will be used, community health

care initiatives are flexible. They allow any services needed by a community to be added

if resources are available, and to be eliminated when the services are no longer needed.

For example, the Newton, Texas community initiative included using resources provided

by the school system to offer vocational education and day care services. Several

communities, including Ltnvisville, Arkansas, Circle and Ekalaka, Montana, Newton,

Texas, Metaline Falls, Washington and Oxford, Nebraska, added non-emergency

transportation services to their initiative. The local hospital could not have provided such

services as easily as the community added them. Several community initiatives included

using the former hospital kitchen to prepare meals for a meals-on-wheels program for

senior citizens. Finally, each of the Medical Assistance Facilities in Montana offered a

dental clinic one day a week.


Such flexibility enables community initiatives to continue changing as needed to meet

community health care needs. Oxford, Nebraska, for example, is currently planning an

expansion of its health care services. Likewise, the Lewisville, Arkansas community

expects to add another wing to its facility and to add county social services, such as public

assistance offices. Also, the Newton, Texas community is planning to include another

community, Kirbyville, Texas, into its network initiative for health care. The hospital in

Kirbyville, a small rural town, closed in 1988. After observing the effectiveness of

Medical Assistance Facilities in four rural Montana communities, Culbertson, Montana

recently converted its small hospital to a Medical Assistance Facility. One board

chairman of a rural community initiative told us, “we used to talk survival. Now we talk

about expanding services and updating equipment.”


Successful Initiatives Eliminated Duplicative And Underused Services


By tailoring health care sexvices to meet their needs, the six initiatives we analyzed

eliminated services that local people were not using, and those that were available to the

community from other sources. All initiatives except MAFs eliminated inpatient care.

The MAFs we visited had eliminated surgical care. Residents who need this type of care

are transferred from the initiative to a hospital.





                                              9

The community initiative designers deleted services that were once provided by the
former hospital, but not used by the community. For example, in Lewisville, Arkansas
the former hospital provided pharmacy services. In developing its initiative for health
care after the hospital closed, the community did not include pharmacy services. Instead,
the community issued vouchers for patients to use at private pharmacies in town where
adequate selvice was available. Likewise, in Caney, Kansas before the hospital closed, it
operated seldom-used and outdated laboratory and x-ray services. Both services were
eliminated when Caney developed its initiative for providing access to health care after
its hospital closed. They dropped the services because they could get the same services
at better quality from the Bartlesville, Oklahoma hospital which was only about 18 miles
away.

STATE ASSISTANCE IS CRITICAL FOR SUCCESSFUL                  COMMUNITY
INITIATIVES

Support from State governments has been vital to the development and operations of
some community initiatives. For example, State health departments and special task
forces in Montana, Washington and Arkansas have supported local community initiatives
through technical assistance and grants.

Further, some community initiatives required State legislation. Montana, for example,
had to change its State law to expand the role of non-physician health care providers
before communities could implement the Medical Assistance Facilities program. The
State of Kansas revised its policies on Medicaid reimbursement to allow the partnership
between Caney, Kansas and the Bartlesville, Oklahoma hospital. Likewise, as part of its
managed care program, Washington State policy would have caused Metaline Falls,
Washington Medicaid patients to be sent to health care providers in another community.
However, the policy was changed and the patients are selved through the Metaline Falls
health care initiative.

LOCALCmmmwmm               RELIED ON EXISTING FEDERAL              PROGRAMS       TO
DEVELOP     SUCCESSFUL      INITIATIVES

As is true of virtually all health care programs, the six initiatives we examined relied on
existing Federal programs to a large extent. Of particular significance, none of the
community initiatives were funded through new Federal programs. To illustrate, Newton,
Texas, Ekalaka, Montana and Oxford, Nebraska received Medicare and Medicaid
reimbursements as part of the existing Rural Health Clinic program. The network of
clinics which includes Lewisville, Arkansas, uses existing funds available under the
Community Health Center program.

Other Federal health programs were used by several communities to help fund special
projects. For example, Ekalaka, Montana used a Rural Transition Grant to design and
plan a satellite clinic in the south end of the county. For the Medical Assistance
Facilities program in Montana, the Health Care Financing Administration provided
funding and approved waivers under a demonstration program.


                                             10
                                     CONCLUSION


Rural communities concerned about access to health care can find other ways to meet
their health care needs without a hospital. Local residents who accept the notion of
health care without a hospital can empower themselves to design and implement a strong
health care system for their communities. The success of local health care initiatives
depends heavily on creative use of all available resources by community leaders. A
community must first obtain strong local support and then seek available State and
Federal support.

This desire of local communities to take responsibility for their own health care needs
was recently endorsed by Secreta~ Shalala. She expressed her intent to help rural
communities empower themselves to meet their own health care needs.

We believe many other rural communities could follow the same processes described in
our report to develop an initiative to meet health care needs.




                                            11

                               APPENDIX           A


                    DEXRIPTION   OF COMMUNITY      INITIATIVES



Newton, Texas:                      Newton Education Center


Lewisville, Arkansas:               Rural Health Clinic


Metaline Falls, Washington:	        North Penal Oreille Health
                                    Services Consortium


Oxford, Nebraska:                   Oxford Medical Center


Caney, Kansas:	                     Jane Phillips Community
                                    Health Clinic

Circle, Ekalaka, Jordan,

and Terry, Montana:                 Medical Assistance Facilities





                                     A-1

                                  Newton Education Center
                                       Newto~ Texas

What is the initiative?

The Newton Education Center offers a variety of services, including a rural health clinic,
public health services, educational programs, and community services at the former
community hospital.

What was the hospital like before it closed?

The occupancy rates at the Newton County Hospital had been steadily declining before
its closure in 1989. The hospital had been built eighteen years earlier, under a Hill-
Burton loan. Virtually all physicians in the community had ceased practicing at the
hospital and services were seriously reduced. Other doctors in the Newton area did not
refer patients to the hospital. Most people traveled to other hospitals in Jasper, 12 miles
away, or in Beaumont, 60 miles away. County funds supported the hospital, but could
not continue indefinitely. The hospital closed when the last doctor working at the
hospital resigned and ceased practicing in the community.

How was the successji.d initiative developed?

When the hospital closed in 1989 the county was faced with nearly a half million dollar
debt and penalties owed for defaulting on the Hill-Burton loan. A new county judge
searched for a way for the county to fulfill an indigent care commitment. A vocational
teacher, who was also a former hospital board member, was searching for a way for the
community to provide a program to help teen mothers stay in school and learn parenting
skills. Grant money for a teen parent program was available from the State, but there
was no space to operate the program. The teacher obtained a State grant and part of
the former hospital was renovated for classrooms and a day care center. As this was
happening, the not-for-profit hospital in Jasper hired a new administrator who had run
satellite rural health clinics before. The former hospital board in Newton and the former
board of another closed hospital in Kirbyville approached the Jasper hospital
administrator about opening rural health clinics (RHCS) in their former hospitals. The
hospital in Newton was county property, and the county judge obtained agreement to
convert part of the former hospital building into a RHC. The RHC opened as part of
the Newton Education Center in February 1992. The county health district needed a
larger space and also moved into part of the former hospital.

What services does the initiative provide?

The Newton Education Center operates a RHC, public health services, transportation

services, and educational services. The RHC provides basic primary care, normal

doctor’s office services from 8:00 am to 5:00 pm, five days a week. As part of the RHC

basic lab and x-ray services are available. A doctor from Jasper Memorial Hospital staffs

the clinic. The Newton Education Center provides public health semices, such as



                                               A-2
immunizations, Women and Infant Care (WIC) services, and well-child care. As part of
the health services provided by the RHC and public health offices, people needing
hospitalization or more specialized care are referred to Jasper Memorial Hospital or
other hospitals in Beaumont, Houston or Galveston.

The Newton Education Center provides limited van service to transport people in need
of care to the RHC, and to affiliated community health clinic and referral hospitals.

The county school system funds many educational programs operated at the Newton
Education Center. The program for teen mothers opened in August 1990. It provides a
place for pregnant students to continue high school, learn parenting skills, and train for
careers in child care. A day care center that is open to the public provides a needed
community service. Newton Education Center also offers other vocational programs.
For example, a food education program is offered in the former hospital kitchen. The
food education program provides training for careers in food service. It also provides
meals to the elderly that are distributed through a meals-on-wheels program. The Center
built a horticultural education center in the field adjacent to the center. It provides
training while growing food for meals programs. The horticulture center is partially
funded through a contract to provide plant care at county offices. Newton Education
Center also provides special education for students with learning disabilities. The Center
plans to use former hospital equipment for training material and add health service
career programs.

How has the initiative ajfected community health care needs?

Many people who had to travel to get care in other places are now able to get care
locally. Newton residents and patients from a 50-mile radius come to the busy clinic.
Since the clinic physician is on staff at a hospital, referral for care is facilitated.

Additional benefits result from offering a range of services in one location like the
Newton Education Center. For example, teen mothers get prenatal care, health
education, and WIC services while participating in a stay-in-school program. Their
children, and other children in a day care center, have access to medical professionals
whenever necessary. A food setice program provides a nutritional diet directly to the
elderly in the community. Secondly it teaches students about the importance of
nutritionally balanced diets. The horticulture program supplies some fresh foods for
better nutrition, and education on how agriculture processes can affect health.

The Newton Education Center, as part of the health care network with Jasper Memorial
Hospital, refers many patients to the hospital. As the patient base expands at Jasper
Memorial Hospital, the hospital is able to add staff and state-of-the-art medical
equipment. This results in the community of Newton having access to a more
sophisticated hospital just 12 miles away.

Contact: James Singletaxy, Newton Education Center (409/379-2522), or Ernie
Domenech, Administrator, Jasper Memorial Hospital (409/384-5461).


                                           A-3
                                    Rural Health Clinic
                                    Lewisville, Arkansas


What h the initiative?

The Rural Health Clinic is a community health clinic and the local health department
sharing the former hospital building. The clinic serves primarily Lafayette County, an
area of about 10,000 people. A satellite clinic is located in the southern part of the
county in Bradley. The board for the initiative has plans to include county social services
into the building to create a “one-stop shopping center.”

What was the hospital like before it closed?

For several years before its closure in 1987, Lafayette Memorial Hospital had lost
physicians and was forced to reduce semices. The hospital had downsized, but still had
an occupancy of only eleven percent. Several larger hospitals that are located about 25
miles away in surrounding counties offered more specialized care. Most people who
were able to travel to any of these other hospitals did so, leaving Lafayette Memorial
Hospital serving primarily elderly and poor patients. Despite low use, community leaders
desired to keep the hospital open. The county levied a one percent sales tax to support
the hospital, and the hospital board developed plans to convert part of the hospital into a
rehabilitation facility. The plans failed and the hospital closed. After the hospital closed,
all but one physician ceased practicing in the county.

How was the initiative developed?

Prior to closure, a group of concerned community leaders formed a board to plan for
county health care needs. They sponsored a needs assessment which showed that the
county was one of the poorest and most underserved in Arkansas.

At the same time, the State Health Department formed a State Committee on Indigent
Health Care to give a rare surplus of Medicaid money as grants to needy communities.
The Lewisville board asked State health officials for a grant and technical assistance in
planning. Together, they developed a plan to combine a health care center with a social
services center to create a one-stop-shopping center to provide care for the poor. The
board received a State grant of over $600,000 to renovate and staff a medical clinic in
the former hospital facility.

The Rural Health Clinic needed a constant supply of operating funds. Several nearby
counties belonged to a network of community health clinics, called Cabun. The Cabun
network participates in the Federal Community Health Clinic (CHC) program. To
obtain CHC funds the clinic at L.ewisville joined the network. Cabun handles the
administration, quality assurance and supervisory work involved in running the clinic.




                                               A-4

The State-run health department which had offices located in Lewisville had outgrown its

old offices and needed a larger facility. The State Health Department area

administrator, working with the community, obtained a State grant to renovate part of

the hospital building for use as State Health Department offices.


WL$atservices does the initiative provtie?

The Rural Health Clinic provides basic primary care, normal doctor’s office services from
8:00 am to 5:00 pm for five days a week. Basic lab and x-ray services are available.
Public health nurses at the Clinic also provide services such as immunizations and well-
child care. A visiting pediatric nurse and nutritionist supplement care. The Clinic
coordinates home health semices that are provided through the State health department.
The Clinic provides van service to bring people without transportation to the Clinic or
transfer them to their choice of hospitals. The Clinic will include county social services
when a new wing is built onto the former hospital building.

The Rural Health Clinic also staffs and administers a satellite clinic, which is located in
the southern part of the county in Bradley, Arkansas. Several years ago, a large hospital
in Louisiana donated an equipped trailer to be used as a clinic in the very undersexed
Bradley area. Now all services provided in Lavisville are also provided on a part-time
basis in Bradley. The high volume of patients has outgrown the trailer, and needs to be
expanded. The Lewisville board is applying for a State grant to build a permanent
facility.

Currently, four doctors, including   one pediatrician, work part-time at the Clinic. The
doctors are employees of Cabun,      and all travel into the community to provide care. The
Clinic board in coordination with    Area Health Education Council is planning to employ a
full-time physician-educator from    the University of Arkansas medical school to staff the
clinic. The physician would then     train residents in rural health care.

How has the initiative aflected community health care needs?

For the very poor, the Rural Health Clinic offered them an opportunity to receive

needed non-emergency health care locally. The Clinic provides reduced cost health care,

enabling access to poor people who would otherwise not be able to pay for private health

care. Since care is locally provided, children, elderly and people without transportation

no longer have to travel or rely on emergency ambulance services to obtain care.


Once the one-stop shopping center is complete, people in Lewisville will have access to a

full-range of social and health services. One short application form will make services

available to patients with fewer hassles to clients and enable providers to better

coordinate services.


Contact: Charles McGrew, Director, Section of Health Facility Services and Systems,

Arkansas Department of Health (501/661-2194).




                                             A-5

                          North Penal Oreille Health SeMces Consortium
                                   Metaline F-      Washington

W%at is the initiative?

North Penal Oreille Health Services Consortium is a network of volunteer and
professional primary health care providers from in and around North Penal Oreille
county.

U%at was the hospital like before it closed?

Mt. Linton hospital in Metaline Falls, Washington closed in 1988 when the only physician
moved out of town. It had 23 beds with an occupancy rate of 9.25 percent. Most
residents received hospital care either by driving 100 miles to Spokane, or 50 miles to
Newport. Upon closing, the hospital district became liable for unemployment insurance
for the former employees and ran up a debt of $77,000, which still exists.

The hospital was run by three locally elected Hospital Board commissioners. The Board
receives a portion of the property taxes -- approximately $9,000 per year in this poor
rural area. The Commissioners used tax revenue and donations from local companies to
pay for insurance and heat to keep the building in good enough condition to reopen. In
1992, four years after closure, the Hospital Board acknowledged that the hospital will not
reopen. They surplused the building and are accepting bids from potential buyers.

How was the successjid initiative developed?

Community members formed a Committee after the hospital closed. Two Committee
members attended a rural health conference and learned of a State grant program
(Rural Health Care Systems Development) and the “community encourage” program.
The pastor of a local church completed the grant application and the community
subsequently received $57,000 from the State. The local Hospital Association paid for
one Committee member to be trained to become a community encourage, which is
basically a community organizer. The Hospital Association used some of the grant
money to follow a planning process developed by Eastern Washington Office of Rural
Health, Area Health Education Center (AHEC), and Washington State University. The
planning process entails several steps. First, AHEC surveyed residents and analyzed
community needs and resources. Then, the community convened a meeting to arrive at
consensus on what health services they wanted and would support. The community
decided its main goals were to get a physician and to obtain 24 hour emergency care.
AHEC told them about a Federal Office of Rural Health Policy Outreach grant. The
same pastor completed an application and the community subsequently received $267,000
for the first year of a 3-year grant. By following the planning process, developed by
AHEC, the community established the basic structure of linkages among providers that
enabled them to meet the requirements to obtain the Federal grant. The Hospital
Association, after years of efforts, successfully recruited a physician in July 1992.



                                               A-6

W4at services does the initiative provide?

The Consortium provides primary care to the community through a clinic, staffed with a
physician, one physician assistant, and three part-time health care assistants who are
licensed by the State. ~eclinic    isopen5days     aweekand     thephysician protides after
hours coverage for life threatening emergencies. The clinic has a referral agreement with
a group of physicians 50 miles away for specialty services. The Consortium also employs
a community health worker who assesses client health and human service needs and
makes referrals using the Consortium’s health resource inventory and an 800 line. A
nearby rural health clinic provider is helping the clinic set up a pharmacy.

The Consortium also supports emergency care. They have a volunteer 911 system,
staffed by the clinic during the work day and five volunteer households on rotating 16-
hour shifts at all other times. The community also has an all volunteer first response unit
with EMTs, Advanced Life Support (ALS) and High Angle Rescue and Dive Team. In
addition, they have an all volunteer ambulance service staffed with EMT and ALS
personnel. The Consortium paid for EMT training and upgrading ambulance equipment.

The Consortium has an agreement with the nearest hospital in Newport to provide
telephone consultation for (1) 911 operators, (2) emergency room care, and (3) inpatient
care. A nearby health care provider has agreed to expand home health services to serve
the Metaline Falls community. The county mental health department will hire two
psychiatric nurse practitioners to serve four counties in the area. A third organization,
Rural Resources, used Consortium funds to help buy and operate a handicapped van to
provide transportation.    The Consortium has a continuing relationship with AHEC for
planning and evaluation.

How has the initiative aflected community health care needs?

Residents are very happy to finally have a physician. Part of the Consortium grant of
$267,000 pays the physician’s salary for now since the clinic’s income is not yet sufficient
to support him. In addition, the consortium provides for more and different types of
care beyond what the physician provides. The Consortium has enabled better emergency
care and more primary care, and it provides some types of care that were previously
unavailable, such as home health care and mental health care. Although many residents
still would like a place where people could stay overnight for medical observation, such
as a Medical Assistance Facility, many feel the Consortium is a satisfactory adaptation to
not having a hospital. The Consortium anticipates that by the time the grant funds are
exhausted, the clinic will have regained enough patients to be self-supporting.

Contact: Kathy Grass, Director, North Penal Oreille Health Services Consortium, Ione,
Washington (509/442-3514).




                                             A-7

                                  Oxford Medical Center
                                    Oxfor@ Nebraska

JWtat k the initiative?

The initiative is a primaxy care clinic staffed by a physician assistant and owned by a
general acute care hospital in Cambridge, Nebraska, 30 miles away. The clinic is housed
in part of the closed hospital building. It is one of five satellite clinics operated by the
Cambridge hospital. The Oxford clinic hours are 9:00 am to noon and 1:00 to 5:00 pm
Monday through Friday, except Wednesday afternoons, when it is closed. It is a licensed
independently certified provider-based rural health clinic.

What was the hospital like before it closed?

The closed hospital, Fritzer Memorial Hospital and Health Center, was built in the
1920’s. In 1987 the Fritzer Foundation gave the hospital to the city of Oxford. During
the 1980’s the financial condition of the hospital deteriorated due to problems of
physician availability and a declining occupancy.

During approximately the last decade the hospital was open, it was staffed by one
medical doctor (MD), except for very brief periods when a second MD was employed.
One physician assistant was also employed the last two years, 1988 and 1989. The sole
MD had gradually narrowed her practice to geriatrics, so younger patients seeking
OB/GYN and/or pediatric services had to go elsewhere. Some community members
assert that people had begun to migrate to Holdrege several decades earlier. Holdrege is
21 miles away, and it offered a wider variety of both shopping facilities and medical
services.

In 1988 the one MD at the hospital was sanctioned by the Peer Review Organization
(PRO), and could no longer seine Medicare and Medicaid patients. Since this sanction
eliminated most of her patients, the physician tendered her resignation, effective January
1, 1990. A temporary physician, who was recruited after the long-term physician left, and
the physician assistant staffed the hospital until December 8, 1989 when inpatient services
were terminated.

People in the community exerted extraordinary efforts to save the hospital. They passed
two bond issues totaling over a half million dollars, developed a system of “Keno” (a legal
form of gambling), and held auctions and bake sales to raise funds. The unabated
decline in occupancy, however, made it impossible to keep the hospital open.

How was the successji.d initiative developed?

Several years prior to the hospital closure the CEO from the hospital in Cambridge had
begun to foster relationships with people in Oxford. He knew the Oxford hospital was
having a difficult time, and wanted the people in Oxford to know that the Cambridge
hospital was willing to try to help, if they wanted them to do so. Late in 1989 when the


                                                A-8
Board at Oxford saw that closure was unavoidable, they approached several nearby
hospitals toaskwhat     each could dotohelp   maintain health care. Only the hospital in
Cambridge responded with anoffer toopen aclinic, initiallyon a90-day trial basis.
Three physicians from the Cambridge hospital provided health care from the time the
hospital closed, until the clinic opened on Januaxy3, 1990, and until afull-time physician
assistant was hired in July 1990. Those three physicians each still work at the clinic one
afternoon a week.

The newspaper in Oxford supported the transition of the former hospital to a primary
care clinic by publishing articles about the new clinic. Medical and non-medical staff
from the Cambridge hospital spoke to groups at meetings in Oxford to express their
commitment to the clinic. Influential citizens in Oxford openly supported the clinic and
encouraged people to use it.

What services does the initiative provide?

The clinic offers general family practice services. Specifically it offers prenatal care,
physician assistant care, laboratory and x-ray services, urgent care during business hours
and on an on-call basis after hours, emergency transportation services through a
volunteer EMT service and helicopter transport to nearby hospitals, well-child services,
family planning services, vision and hearing screening for school and employment,
nutrition education, EKG, health education sefices, and a pharmacy.

How has the initiative affected community health care needs?

When the hospital closed the community was generally in a state of despair. Now the
community in general is happy and appreciative of what they have. Many believe the
clinic health care is far more reliable and varied than that previously offered by the
former hospital. The clinic has preserved a system of primary care and emergency care
in the community, made Medicare- and Medicaid-reimbursed services available again,
brought people back to the business section of town, preserved professional and technical
level jobs, saved the only pharmacy in town from closing, and made access to care better.
The addition of a “handibus” which runs between Oxford and Cambridge on Tuesdays
has improved access to hospital services -- particularly for the elderly and the poor. The
initiative has helped to erode a strong sense of rivalry between the two towns and
enlarged the concept of what a “community” is.

The Cambridge hospital continues efforts to recruit a full-time medical doctor to staff the
Oxford clinic and hopes to broaden their services further with the addition of specialists.

Contact: Jim Naeve, CEO, Cambridge Memorial Hospital and Medical Center,
Cambridge, Nebraska (308/697-3329).




                                             A-9

                           Jane Phillips Community Health Clinic
                                        Caney, Kansas

W%at is the initiative?

In Caney, Kansas (population 2,300) the former acute care hospital is now a doctors’
clinic and a 10 bed long-term care facility. The clinic is a satellite of a large regional
health center, Jane Phillips Episcopal Memorial Medical Center in Bartlesville,
Oklahoma, just 18 miles away.

W+at was the hospital like before it closed?

The hospital was staffed to provide 24-bed in-patient acute care, 24-hour emergency care,
x-ray and clinical lab services.

Caney hospital served a community with a large number of elderly people. In the years
preceding closure, the Medicare use rate ranged between 40 and 60 percent, once going
as high as 78 percent.

Fewpeople were using the hospital. Ithadan   occupancy rate of about 25 percent prior
to closing. From 1981to 1988 annual patient admissions declined from 521 to 217.

During the last two years of its existence as an acute care facility, the Caney hospital was
dependent on fundraisers and private donations to continue operations. As one board
member of the former hospital said, “You can’t tax enough to keep a rural hospital in
business.”

How was the successful initiative developed?

The vision and initial groundwork for the initiative was provided by the administrator of
the former hospital. Many communities undertake ill-advised yet understandable
refinancing measures in order to ensure their hospitals stay open. However, Caney,
having struggled to keep their hospital afloat, was primed to accept another means of
care. The administrator responded to evidence of impending financial insolvency by
identi&ing options, which included recognizing health care system support being provided
by the Jane Phillips Episcopal Memorial Medical Center in Bartlesville, Oklahoma.

In fact, the Jane Phillips story is the real story here. It was already providing a variety of
support semices as a hub for several other formerly independent community health care
facilities. Included in these are hospitals in Pawhuska, Oklahoma and Sedan, Kansas. A
third hospital in Nowata, Oklahoma presently serves as a drug and alcohol rehabilitation
facility. In addition, two other satellite physician clinics in Barnsdahl and Ramona,
Oklahoma complete the regional picture. In each case the facility facing closure
approached Phillips Hospital for support ranging from management services to direct
financial aid. In each case, Phillips responded by providing the appropriate level of
support to maintain the health care service or some altered type of service.


                                               A-10
While this is not a formal EACH/RPCH demonstration, the model which Jane phillips
pioneered in the region is very similar. The major hospital at the hub is surrounded by a
number of other limited health programs. One important difference is that in the Caney
instance the health community served crosses State lines which EACH/RpCH prohibits.
Foresight and careful planning allowed the Caney Hospital to close as an acute care
facility one Friday and open on the following Monday as a Jane Phillips 24-hour doctors’
health clinic and long-term care facility.

J-Watservices does the initiative provide?

The Caney facility provides offices for three physicians, lab services, and an optician’s
office. At the time of our site visit, September 1992, Caney was preparing to house its
remaining pharmacy in the same complex with the clinic. The clinic also serves the
community of Caney and the immediately surrounding rural area with 24-hour urgent
care and emergency transportation services to Jane Phillips Hospital in Bartlesville,
Oklahoma.

At the time of our visit, Caney had two practicing physicians. Negotiation to obtain a
third practicing physician for the community was almost completed. The former hospital
also employed the services of a physician assistant on a part-time basis. With lab semices
on site and access to more advanced diagnostics at the Phillips hospital, the arrangement
meets community needs. Physicians shared a waiting room and reception services. Each
had a private office and several patient treatment rooms. Each also had privileges at
Phillips hospital.

The clinic was in the process of becoming a focal point in town for all health services
except dentistry. An optician had recently moved offices into the facility and a pharmacy
was also preparing to do so. The clinic also has the ability to transport patients with
both a helipad and an ambulance available for cases requiring stabilization and transport.

How has the initiative affected community health care neeak?

The implications for one-stop health care are obvious. With the convenience offered
here, buoyed by the capability of Phillips to provide more sophisticated medical services,
the initiative is meeting Caney health care needs better than the original hospital. In
fact, the transition to the clinic concept was so smooth that most citizens we contacted
expressed a belief that it is still a hospital with more services. While the former hospital
was underused, the clinic now has a waiting list of patients wanting health care service.

Contact: Catherine H. Abrams, Vice President for Regional Development, Jane Phillips
Episcopal Memorial Medical Center, Bartlesville, Oklahoma (918/333-7200 Ext. 748).




                                             A-II

                                   Medical Assistance Facilities
                          Circle, Ekala@ Jorckq and Terry, Montana

What is the initiative?

A Medical Assistance Facility (MAF) offers low intensity inpatient care, 24-hour
emergency care, and basic outpatient medical services. As designed under Montana law,
a MAF must be in a county with a population density of no more than six residents per
square mile. Further, it must be located more than 35 miles from the nearest hospital.
MAFs operate without meeting the same licensing requirements as hospitals. In MAl?s,
care may be provided by physician assistants or nurse practitioners, with a supervising
physician visiting the MAF once every 30 days. The MAF does not need to be staffed
24-hours a day unless a patient is in the facility. Only one MAF staff member must be
on duty or on call at all times. Patients may receive up to four days of inpatient care in
a MAF. However, patients with serious illnesses or injuries are stabilized at the MAF
and transported to a full-service hospital.

W+at was the hospital like before it closed?

At the time of our review, four Montana communities had MAFs. They are Circle,
Ekalaka, Jordan, and Terry. All four of the community hospitals had low occupancy
rates. Most of the hospitals had scaled back services. None of the four hospitals
provided specialty care. Finally, most surgeries and obstetrical services were
discontinued.

How was the successful initiative developed?

Unlike other communities with successful initiatives, the four Montana communities were
invited to participate in the MAF project. Early in the 1980’s, the governor of Montana
created a task force to study the future of rural hospitals. The task force determined
many rural communities could not continue to support a full-service hospital, yet
communities needed access to primary and emergency care. In 1987, the Montana State
legislature authorized the MAF program. This program was designed to provide
continued access to health care by converting a full-sefice hospital into a low-intensity,
short-stay health care service center.

In 1988, the Montana MAF program received planning and development funding through
a Health Care Financing Administration (HCFA) demonstration grant. Also, HCFA
waived numerous hospital requirements so that MAFs could receive Medicare
reimbursement.     In 1990, HCFA authorized a cost-based reimbursement system for
MAFs. HCFA also established quality assurance, utilization review and certification, and
life safety standards for MAFs.




                                               A-12

W%atservices does the initiative provide?

MAFs provide up to 96 hours of inpatient acute care, 24-hour emergency services,
stabilization and transfer services for severe cases, basic lab services and basic x-ray
services. All MAFs also offer outpatient medical service, and are collocated with nursing
homes. Each MAF may offer other services based on the needs and resources of the
community.

How has the initiative affected community health care needs?

MAFs meet most of the health care needs of a community. With the combination of 24-
hour emergency care and limited inpatient care, MAFs are providing basically the same
care as that provided by the former hospital. Providers at the MAF are performing only
limited and clearly defined services which they are fully equipped and trained to handle.
When patients need care that is not available at a MAF, the MAFs transfer them to a
facility that can provide the needed care.

Contact: Keith McCarty, Director, Montana Hospital Research and Education
Foundation (406/442-8802).




                                            A-13

